       ~

        NATIONAL 

        ARCHIVES 

      OFFICE of 

 INSPECTOR GENERAL 



Date         May 22, 2012

Reply to 

Attn of:     Office of Inspector General (OIG) 


Subject:     Management Letter No. 12-13, Security Incident at AI

To       :   David S. Ferriero, Archivist of the United States (N)

On April 17, 2012 a suspicious individual entered the Archives I Pennsylvania Avenue
entrance with a bag containing what appeared on x-ray to be ammunition and possibly a
semi-automatic handgun. The individual was able to retrieve his bag and leave without
NARA: (1) physically searching his bag; (2) saving the x-ray image of the bag; (3)
capturing useful video images of the Pennsylvania Avenue lobby or building exterior; or
(4) alerting appropriate law-enforcement officials in accordance with applicable policies
and procedures. This Management Letter alerts you to the Office oflnvestigations (01)
review of this incident, and our findings and suggestions to improve security protocols,
response, and equipment.

BACKGROUND:

Security Incident Report

On April 17, 2012, NARA Security Services (BX) reported a security incident at
Archives I to the OI. According to the Incident Report I , an unidentified man entered the
Pennsylvania A venue entrance, stated he was there to do research and asked a contract
security officer (CS01) ifhis camera needed to go through the x-ray machine. CS01
told the man his camera would need to go through the x-ray machine. The man stated he
would return and left the building without allowing security to screen his camera. He
returned approximately four minutes later without his camera, placed his backpack on the
x-ray machine and walked through the magnetometer. However, the magnetometer was
not functioning and CSO 1 inspected the man with a hand wand, which indicated the man
had metallic items in his pants pockets. CSO 1 instructed him to step back through the



I An initial Incident Report was prepared, but then replaced by a more detailed Incident Report. This second
Incident Report was prepared by a contract guard supervisor on duty at the time of the incident, not by the officers
involved.




                                      NARA's web site is http://www.nara.gov
magnetometer, place the contents of his pockets into one ofthe trays, and put the tray
through the x-ray machine.

During this time a second contract security officer (CS02) reviewed the x-ray of the
man's backpack, and saw what he thought were seven or eight rounds of rifle
ammunition and possibly a weapon. CS02 reversed the x-may machine belt to look at
the bag again and asked CSOI to look at the monitor. CSOllooked at the monitor and
agreed with CS02's findings. CS02 then told the man he needed to search his bag. The
man refused, retrieved his backpack, and left through the Pennsylvania Avenue entrance.

CS02 notified a guard supervisor who reviewed the x-ray image of the bag and agreed
that it appeared the bag contained ammunition and possibly a weapon. The guard
supervisor notified the Archives I Chief of Security who also responded to the
Pennsylvania Avenue lobby and reviewed the x-ray image? The guard supervisor told
the contract security officers at the Archives I Constitution Avenue side entrance about
the situation, and notified the security contractor on-site manager who was at Archives II
in College Park, MD. Finally, the Chief notified the OIG, the Metropolitan Police
Department (MPD) and NARA management.

 Although not noted in the Security Incident Report, during the time this man attempted
to gain access to AI some of the "staff only" doors near this entrance area were propped
open and unsecured. In general, the possession of an unregistered firearm is a violation
of D.C. Code §7-2502.01, and possession of ammunition without a registered firearm is
a violation of D.C. Code § 7-2506.01. Both are generally punishable by imprisonment
for not more than one year, a fine not more than $1000, or both.

01 Investigation

On April 17,2012, the 01 initiated a joint investigation with the Federal Bureau of
Investigation, Joint Terrorism Task Force, Washington Field Office (JTTF), to identify
the man and address any potential ongoing risks to NARA facilities and personnel.

Interviews of Security Officers and the Chief of Security

CS02 provided details of the incident showing the Incident Report prepared by the guard
supervisor was inaccurate. CS02 stated while initially screening the man's bag, CS02
only thought he observed ammunition. It was not until he reviewed the image after the
man left Archives I that he saw a handgun. CS02 stated he was "100 percent sure" he
saw ammunition, and "80 percent sure" he saw a handgun when he reviewed the x-ray
image. CSO 1 also provided details of the incident differing from the Incident Report.
CS01 clarified he was unsure whether he saw ammunition on the x-ray image, and did
not believe he saw a handgun. The Chief stated he did not see a weapon when he viewed


2 CSOI and CS02 hand checked items until the Chief responded approximately 30 minutes after the incident. Once
the Chief reviewed the image, the CSOs began using the x-ray machine again.




                                                  Page 2 

                                   NARA's web site is http://www.nara.gov 

the x-ray image, and he thought the contract security officers handled this incident
appropriately.

Review of Available Video Footage

A review of video footage from the east and west-side Pennsylvania Avenue lobby
security cameras confirmed the general activity described above.

      No footage was available from the exterior cameras outside the Pennsylvania
Avenue entrance because the Genealogy Fair tent was blocking the cameras. A review of
video footage from all Archives I exterior cameras, and from cameras on other buildings
adjacent to Archives I, did not identify any additional footage ofthe individual.

Review of X-ray Image

The image of the unknown man's backpack on the x-ray machine was not recorded or
saved, and could not be reviewed by the or. While the x-ray machine does have an
archive feature, the machine's control panel indicates this feature has not been activated.
However, according to the manufacturer this feature should be available on the machine
sold to NARA. The machine is clearly capable of keeping an image even after an item
has been removed, as both the security officer supervisor and the Security Chief reviewed
the image after the suspicious man left. However, no attempt was made to photograph or
otherwise document the image of the backpack.




Review of Applicable Orders. Procedures and Statutes

Pennsylvania Avenue Lobby Security Orders

Contract security guards are given specific written instruction in how to carry out their
duties in Security Post Orders and Special Security Orders (SSOs). The SSO for
entrance screening procedures requires security officers to inspect bags and articles either
physically or with the x-ray machine. If the search reveals a weapon, the security officer
must then follow a different SSO titled "Weapons/Destructive Devices" which was
updated December 19,2011 (attached). Ammunition is considered a weapon in the
SSOs.

When a search reveals a weapon or destructive device, the "WeaponslDestructive Devices" SSO
requires security officers to consider the situation dangerous, immediately notify the supervisor
and Security Control Center, and determine if the individual is authorized to legally possess the
weapon. If the individual is not authorized to possess the weapon the security officer is required
to follow the procedures in the SSO part entitled "(2) Possession of Unauthorized Weapons on
NARA Property." Unfortunately, the SSO does not contain any such section.



                                               Page 3 

                                NARA's web site is http://www.nara.goY 

Instead, the SSO only contains "(1) Possession of Authorized Weapons on NARA Property."
This part is broken down into inconsistently formatted lettered sections containing obvious
omissions and irregularities. Regardless of the confused format, page five of the SSO does have
a section titled "h. Ammunition. (The possession of ammunition without a registered firearm.)"
This section states:

    • 	 The S. 0. will not authorize unregistered ammunition on NARA property.
    • 	 The S. 0. will notify the supervisor and the Security Control Center ofthe incident.
    • 	 The Security Control Center will notify the appropriate law enforcement agency and
        request their assistance.
    • 	 An Offense / Incident and Investigative Report (NA Form 6037) will be prepared.

Special Police Officer Authority

All of the contract security officers at the Archives I building are Commissioned Special Police
Officers (SPOs). While on duty SPOs have the same authority as an MPD police officer. That
authority is limited to the particular place or property which the SPO is commissioned to protect
(Archives I building and grounds in this case). However, a SPO may exercise their authority
outside that particular property if they are in fresh pursuit of a criminal leaving the property.

PROBLEMS IDENTIFIED

The investigation revealed the following:

   • 	 The security officers failed to immediately notify the Security Control Center
       when CS02 identified the ammunition, as required by the SSO. This prevented
       the Security Control Center from notifying MPD and requesting their assistance.
       Additionally, under their SPO authority, the security officers could have detained
       or arrested the unidentified man for violating D.C. Code § 7-2506.01 while they
       waited for MPD to respond.

    • 	 The security officers failed to take all the necessary precautions to mitigate the 

        situation. The security officers allowed the man to regain control of a backpack 

        CS02 thought contained ammunition. This increased rather than mitigated the 

        severity of a potentially dangerous situation. 


    • 	 The "Weapons/Destructive Devices" SSO is incomplete, confusing and
        inconsistently formatted. The SSO also does not specifically require security
        officers to maintain custody over items they identify as suspicious using the x-ray
        machine.

    • 	 The security officers failed to properly identify the suspicious individual. The 

        CSOs did not request or review the man's picture identification. Additionally, 

        when the unidentified man left the Archives I building for the final time, the 

        security officers did not follow him to determine where he went. Direction of 




                                               Page 4 

                                NARA's web site is http://www.nara.gov 

      travel and the time the individual left would have been useful in locating security
      footage from adjacent government facilities and in identifying the man.

  •




  • 	 The image archive feature was not activated on the x-ray machine in the
      Pennsylvania Avenue lobby, and no contract or NARA security personnel
      attempted to capture the image in another way. As a result, 01 and JTTF could
      not independently review the image, and no image was available for potential
      prosecution.

  • 	 The Genealogy Fair tent obstructed the exterior camera view of the Archives I
      Pennsylvania Avenue entrance, so there was no video footage of the unidentified
      man leaving Archives 1.

  • 	 The Incident Report prepared by the security supervisor was not consistent with
      details provided by the two CSOs involved in the incident.

MATTERS TO BE ADDRESSED:

  • 	 Security officers should know how they are required to respond to weapons and
      destructive devices. OIG Audit Report No. 11-05 (Audit ofNARA's Security
      Guard Contract for AI and All) issued on February 18, 2011 recommended BX
      implement scenario based training to assess security officer knowledge and
      response. This incident further illustrates the need to test and assess the security
      officers understanding of their responsibilities.

  • 	 Update the SSOs to ensure they provide clear and accurate guidance to the 

      security officers. 


  • 	 Require security officers in the Security Control Room to take measures to more
      accurately record suspicious individuals, such as zooming in lobby cameras when
      a suspicious person has been identified.

  • 	 Consider reconfiguring the equipment used to record images of activity in the
      lobby to increase detail. This could be done by upgrading equipment or other
      measures. For instance, if the current digital video recorder system can support it,
      the resolution and frame rate of lobby recordings could be increased.

  • 	 Activate the x-ray image archive feature or similar functionality on all x-ray
      machines, and ensure all security officers are trained in how to properly use the
      machines. Any future procurement should address this functionality as well.



                                              Page 5 

                               NARA's web site is http://www.nara.goY 

    • 	 Roof cameras at Archives I do not capture sufficient detail to identify individuals
        and record direction of travel. Other options should be considered, such as more
        exterior street level cameras.

    • 	 Ensure responding/involved contract security officers concur with Incident
        Reports prepared by guard supervisors.

 Please provide a written response to these matters within 30 days of the date of this letter. If
 you have any questions or require additional information, please contact me or Matthew
 Elliott, my Assistant Inspector General for Investigations, at 301-837-2941. As with all OIG
 products, we will determine what information is publically posted on our website from this
 management letter. Should you or management have any redaction suggestions based on
 FOIA exemptions, please submit them to my counsel within one week from the date of this
 letter. Should we receive no response from you or management by this timeframe, we will
 interpret that as confirmation NARA does not desire any redactions to the posted report.


~ c-/z/
 Paul BraChfel/     ~          

 Inspector General 


 Attachment: 

 Special Security Orders - Weapons/Destructive Devices; dated December 19,2011; 5 pages 





                                                  Page 6 

                                   NARA's web site is http://www.nara.goY 

The attachment, pages 7 to 11, consisting of detailed Post Orders outlining responses for security
guards to take in various situations has been redacted in full.
